              Audit Report



The Social Security Administration’s
Reduction in Field Office Operating
              Hours




       A-01-14-14039 | August 2014
MEMORANDUM


Date:      August 7, 2014                                                     Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   The Social Security Administration’s Reduction in Field Office Operating Hours
           (A-01-14-14039)

           The attached final report presents the results of our audit. Our objective was to determine the
           effect of the Social Security Administration’s decision to reduce field office hours to the public.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
The Social Security Administration’s Reduction in Field Office
Operating Hours
A-01-14-14039
August 2014                                                           Office of Audit Report Summary

Objective                               Our Findings

To determine the effect of the Social   The public was sometimes unaware and personally affected by the
Security Administration’s (SSA)         reduced FO hours. Consequently, the public’s satisfaction with FO
decision to reduce field office (FO)    hours decreased. In addition, some FO managers reported that the
hours to the public.                    reduced public hours generally improved workload processing as
                                        well as staff training and morale. However, some FO managers
Background                              reported drawbacks from the reduced public hours, such as
                                        increased wait times, crowded lobbies, and limited appointment
FOs are SSA’s primary points of         availability.
contact for face-to-face service with
the public. In August 2011, SSA         SSA should continue communicating FO hours and other service
began closing FOs (nationwide)          methods, such as the National 800-Number and Website, to the
30 minutes earlier each day. In         public, other government agencies, and service organizations.
November 2012, SSA extended these
early closures to 1 hour. In
January 2013, SSA further reduced FO
hours by closing every Wednesday
at noon. With the reduced hours, FOs
were open to the public 27 hours
compared to the previous 35 hours per
week.

Since Fiscal Year 2011, SSA has
experienced increased workloads as
well as decreased staffing levels and
budgets. Therefore, SSA took
measures to continue providing
adequate service to the public,
including reducing FO hours.
Although the FO is closed to the
public, SSA staff continues working.
According to SSA, the reduced public
hours allow staff to complete
face-to-face interviews and process
claims with reduced overtime costs.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................3
     The Public ..................................................................................................................................3
           Awareness of FO Hours .......................................................................................................3
           Individuals Affected by Reduced FO Hours ........................................................................5
     FO Manager Feedback ...............................................................................................................5
           Reduced FO Hours - Benefits ..............................................................................................5
           Reduced FO Hours - Drawbacks .........................................................................................6
     Public Satisfaction with FO Hours ............................................................................................7
     Face-to-Face and Other Service Options ...................................................................................8
     Overtime ....................................................................................................................................9
     SSA’s Plans for Future Service and Delivery ..........................................................................10
Conclusion .....................................................................................................................................12
Agency Comments .........................................................................................................................12
Appendix A – The Social Security Administration’s Other Service Delivery Options ............. A-1
Appendix B – Scope and Methodology ..................................................................................... B-1
Appendix C – Customer Feedback ............................................................................................. C-1
Appendix D – Agency Comments .............................................................................................. D-1
Appendix E – Major Contributors...............................................................................................E-1




The Social Security Administration’s Reduction in FO Operating Hours (A-01-14-14039)
ABBREVIATIONS
CDR                  Continuing Disability Review

FO                   Field Office

FY                   Fiscal Year

GAO                  Government Accountability Office

IRS                  Internal Revenue Service

OIG                  Office of the Inspector General

OQP                  Office of Quality Performance

OQR                  Office of Quality Review

RCF                  Regional Commissioner Field

SSA                  Social Security Administration

SSI                  Supplemental Security Income

SSN                  Social Security Number

USPS                 United States Postal Service

VA                   Department of Veterans Affairs




The Social Security Administration’s Reduction in FO Operating Hours (A-01-14-14039)
OBJECTIVE
Our objective was to determine the effect of the Social Security Administration’s (SSA) decision
to reduce field office (FO) hours to the public.

BACKGROUND
FOs are SSA’s primary points of contact for face-to-face service with the public. In
August 2011, SSA began closing FOs (nationwide) 30 minutes earlier each day. In
November 2012, SSA extended these early closures to 1 hour. In January 2013, SSA further
reduced FO hours by closing every Wednesday at noon. With the reduced hours, FOs were open
to the public 27 hours compared to the previous 35 hours per week.

SSA maintains about 1,200 FOs that vary in size and number of visitors. 1 For example in Fiscal
Year (FY) 2013, the Huron, South Dakota, FO averaged 19 visitors per day, and the Miami
South, Florida, FO averaged 568 visitors per day. 2 FO services to the public include

      processing Social Security number (SSN) or replacement SSN card applications; 3
      taking applications and determining eligibility (non-medical only) for Old-Age, Survivors
       and Disability Insurance and Supplemental Security Income (SSI) benefits;
      conducting continuing non-medical eligibility reviews to ensure payment accuracy; 4 and
      performing various other functions, such as updating beneficiary records or answering
       telephone calls. 5

Since FY 2011, SSA has experienced increased workloads as well as decreased staffing levels
and budgets. 6 Therefore, SSA took measures to continue providing adequate service to the
public, including reducing FO hours. Although the FO is closed to the public, SSA staff


1
  SSA also provides limited services to the public through contact stations. Station employees travel to specific
locations, such as hospitals, and provide face-to-face service to communities far from an FO.
2
    SSA, MI Central, Customer Service Record Performance Reports.
3
    SSA refers to the processing of these applications as its enumeration workload.
4
 SSA refers to these as continuing disability review (CDR) and redetermination workloads. In FY 2013, SSA
completed approximately 429,000 full medical CDRs and over 2.6 million SSI non-medical redeterminations. SSA,
FY 2013 Agency Financial Report, December 2013, p. 8. Disability determination services (not the FOs) evaluate
whether a person is disabled.
5
    In FY 2013, FOs received over 68 million calls nationwide. SSA, FY 2015 Budget Overview, March 2014, p. 5.
6
  In FYs 2011 and 2012, the difference between the President’s Budget and SSA’s appropriation was greater than
any year in the previous 2 decades. SSA, Service Delivery Plan, February 2013, pgs. 2 and 3. According to SSA,
decreased funding made it impossible to provide the overtime needed to service the public as the Agency had done
in the past. SSA News Release, Social Security Field Offices to Begin Closing to the Public a Half Hour Early,
July 22, 2011.



The Social Security Administration’s Reduction in FO Operating Hours (A-01-14-14039)                                1
continues working. According to SSA, the reduced public hours allow staff to complete
face-to-face interviews and process claims with reduced overtime costs. 7

To notify the public of the reduced FO hours, SSA issued a national press release and local press
releases to advocates, third parties, and the media. In addition, SSA posted signs at the FOs and
updated telephone messages and the SSA Website with the new FO hours.

According to SSA’s Office of Quality Review (OQR), the public’s satisfaction with FO hours
decreased from 93 percent in 2011 to 87 percent in 2012. 8 OQR attributed this to the reduced
public hours. 9

In addition to FOs, SSA provides the following service options: the National 800-Number at
1-800-772-1213 and Website at www.ssa.gov (see Appendix A for more information).
However, the number of visitors to the FOs remains high. In FY 2013, FOs assisted over
43 million visitors—slightly less than the prior 2 years. See Table 1.

                            Table 1: Total FO Visitors by Day of the Week 10
                                                                                         Saturday
     Fiscal
                 Monday      Tuesday      Wednesday        Thursday         Friday         and            Total
     Year
                                                                                         Sunday 11
     2011       9,339,735   9,753,629      9,017,047       8,398,812      8,356,508        12,206      44,877,937
     2012       9,117,969   9,781,772      8,894,613       8,623,890      8,448,548         3,478      44,870,270
     2013       8,984,719   9,495,050      6,405,847       9,358,891      8,981,626         5,997      43,232,130

To accomplish our objective, we

           contacted FO managers for feedback about the reduced hours and their effect on the
            public, staff, and workloads;
           observed 18 FOs at closing time on a Wednesday at noon and spoke with 79 individuals
            who arrived after the FOs closed; and
           reviewed the hours of other Federal agencies that also served the public.



7
 SSA News Release, Social Security Field Offices to Close to the Public a Half Hour Early Each Day and at Noon
on Wednesdays, November 7, 2012.
8
  SSA Office of Quality Performance (OQP), Report on the Fiscal Year 2012 Office Visitor Survey: Field and
Hearing Office Analysis, September 2013, p. 2. The report uses a 6-point satisfaction scale: excellent, very good,
and good that equates to satisfaction; and fair, poor, and very poor that equates to dissatisfaction. OQP was renamed
the Office of Quality Review (OQR).
9
    Id.
10
     SSA, MI Central, Customer Service Record Performance Reports.
11
  According to SSA, there are times when FOs need to schedule weekend appointments (using overtime) to process
SSI redeterminations and medical CDRs.



The Social Security Administration’s Reduction in FO Operating Hours (A-01-14-14039)                                2
See Appendix B for more information about our scope and methodology.

RESULTS OF REVIEW
The public was sometimes unaware and personally affected by the reduced FO hours. 12
Consequently, the public’s satisfaction with FO hours decreased. In addition, some FO
managers reported that the reduced public hours generally improved workload processing as well
as staff training and morale. However, some FO managers reported drawbacks from the reduced
public hours, such as increased wait times, crowded lobbies, and limited appointment
availability.

The Public
Awareness of FO Hours
Some of the public was unaware of the reduced FO hours. According to FO managers, the
number of individuals who arrived after the FO closed ranged from none to over 25 per week.
See Table 2.

                     Table 2: Individuals Arriving After FO Closed Per Week
        Average Number of Individuals                 Number of Managers              Percent of Managers
      Arriving After FO Closed Per Week                   Reporting                        Reporting
     0 Individuals                                           212                               21%
     1-5 Individuals                                         259                               25%
     6-10 Individuals                                        152                               15%
     11-15 Individuals                                       109                               11%
     16-20 Individuals                                         87                               8%
     21-25 Individuals                                         45                               4%
     Over 25 Individuals                                     164                               16%
                     TOTAL                                      1,028                           100%

During our FO visits, we observed individuals who arrived after the FO closed. 13 We spoke with
79 of these individuals, and 33 (42 percent) reported that was their first visit to the FO. An FO
manager commented that a majority of the American public visits an FO “…a few times in their
lifetime”; therefore, these individuals were largely unaware of FO hours.



12
  These results do not represent all individuals who do business at the FO. These results are a snapshot of
individuals who were at the FO on a Wednesday after closing and willing to talk to us.
13
 We observed 18 FOs and counted a range of 1 to over 25 individuals who arrived after the FO closed while we
were present.



The Social Security Administration’s Reduction in FO Operating Hours (A-01-14-14039)                           3
In some instances, non-SSA Websites, SSA correspondence, SSA staff, and other agencies could
have better communicated FO hours to the public. Of the 79 individuals we spoke with, some
commented they were unaware of FO hours. Their reasons were as follows.

      Non-SSA Websites listed the FO hours incorrectly. 14 An individual stated that a non-SSA
       Website provided incorrect FO hours. We viewed the Website and confirmed the FO hours
       were incorrect.
      SSA correspondence did not include FO hours. An individual stated a letter from SSA
       instructed him to bring paperwork to the FO, but it had no specifics about FO hours.
      SSA staff did not communicate FO hours. An individual stated he called the FO on a
       Wednesday morning to inform the caseworker he would arrive around 12:30 p.m. The
       individual alleged the caseworker did not mention the FO closed at 12:00 p.m.
      Other government agencies did not communicate FO hours. 15 An individual stated that on a
       Wednesday, a State agency sent her directly to the FO regarding a parent’s death; however,
       they did not mention the FO was closed.
      The individual confirmed FO hours but did not notice that Wednesday’s hours were different
       than the hours on other days of the week. (For further details on public feedback, see
       Appendix C.)

An FO manager commented that non-SSA Websites with incorrect hours caused frustration. For
example, the manager described individuals who arrived after the FO closed, screamed at the
guard, and showed non-SSA Websites with incorrect hours on their smartphone. 16 This FO
manager contacted a person at one non-SSA Website and requested the site correct its
information on FO hours. It took 4 months for the website to be updated to display the correct
FO hours.

Some FO managers reported that the public seemed to be more aware of the reduced hours. For
example, a manager commented that, initially, there were some complaints about the early
closing—usually in person. However, the public was becoming more aware of FO hours, and
there were no recent complaints. Furthermore, some FO managers reported receiving complaints
about FO hours even before SSA reduced operating hours.

SSA instructed FO managers to update signs with the reduced public hours. During our 18 FO
observations, 1 FO had no sign that listed public hours. Another FO had numerous signs with
differing public hours listed.



14
     SSA does not assume responsibility for information posted to non-SSA Websites.
15
     SSA does not assume responsibility for information provided by non-SSA employees.
16
  At some of the FOs, we observed security guards speaking with individuals who arrived after the FO closed and
informing them of the public hours. In a few instances, we observed guards handle upset individuals. After the
reduction in public hours, a couple of FOs reported adding an extra security guard.



The Social Security Administration’s Reduction in FO Operating Hours (A-01-14-14039)                              4
Individuals Affected by Reduced FO Hours
Some of the 79 individuals we spoke with commented on how the reduced hours personally
affected them. Their comments included the following.

    Taking time off work, as public hours were inconvenient for individuals who worked.
    Being in pain after taking two commuter lines to get to the FO. One individual commented
     that she would experience even more pain because she had to come back the next day.
    Paying for transportation to and from the closed FO and having to pay for transportation to
     and from the FO to come back the next day.

An FO manager commented that many individuals lived miles away and complained about
driving in, wasting time off work, and using gas only to find the FO closed. Another FO
manager commented that, despite signage and marketing efforts, frustrated customers were
routinely in the parking lot Wednesday afternoons. According to this manager, the FO averaged
between 16 and 20 cars arriving every Wednesday afternoon after the FO closed, and that
number had not diminished over time. Additionally, the next day, customers would comment, “I
even took off from work to come down here.” 17

FO Manager Feedback
Of the 1,172 FO managers contacted, 1,028 (88 percent) provided feedback about the reduced
FO hours and the effect on the public, staff, and workloads. 18

Reduced FO Hours - Benefits
Of the 1,028 FO managers’ responses, some reported that the reduced public hours were
beneficial. For example, FO managers’ comments included that the reduced hours

    allowed staff to concentrate on complex cases without interruptions;
    enabled the FO to address multiple workloads and training needs as well as conduct staff
     meetings, which balanced FO workloads, improved employee morale, and improved overall
     public service;
    facilitated training sessions and backlog processing;
    enabled the FO to maintain the high standard of productivity and quality that SSA expects
     and the American public deserves, even with limited staffing and overtime;



17
 FO managers reported receiving a range of zero to over 25 complaints per week. According to FO managers,
most individuals voiced their opinion in person or by telephone.
18
 An effective response rate for questionnaires ranges between 75 to 95 percent. GAO, Developing and Using
Questionnaires (GAO-PEMD-10.1.7), October 1, 1993, p. 203.



The Social Security Administration’s Reduction in FO Operating Hours (A-01-14-14039)                        5
      made a significant difference in staff morale and the ability to process work in a timely
       manner, as staff felt less stressed. Before the change in public hours, FO staff typically
       interviewed customers until 5:15 p.m. After the change, staff typically interviewed
       customers until 4:30 p.m., which allowed for more time to complete tasks that did not require
       face-to-face contact with individuals; and
      facilitated working on priority workloads. See Table 3.

     Table 3: Top Five Workloads Addressed When Closed to the Public per FO Managers 19
                 Workloads                           Number of FO                            Percent of
                 Addressed                          Managers Reported                       FO Managers
     Redeterminations                                         958                               93%
     Post-Entitlement                                         932                               91%
     CDRs                                                     923                               90%
     Initial Claims                                           879                               86%
     Interviews with Customers 20                             811                               79%

Reduced FO Hours - Drawbacks
Of the 1,028 FO managers’ responses to the reduced hours, some reported the following
drawbacks.

      They did not reduce the number of visitors SSA must serve. For example, in July 2011 (the
       month before the initial half hour reduction in hours), an FO served a weekly average of
       1,143 visitors. In October 2012, (the month before the second half hour reduction in hours),
       this FO served a weekly average of 1,251 visitors. Finally, in November 2013, (after the
       Wednesday noon closure), this FO served a weekly average of 1,163 visitors.
      They resulted in no gain on workload processing. The reduced hours just compressed the
       FO’s traffic into a shorter timeframe and resulted in the same work as before.
      They created a second busy, stressful day on Thursday because individuals who arrived to
       the closed FO on Wednesday often returned on Thursday in a frustrated mood. Traditionally,
       Monday was the busiest, most stressful day.
      Average public wait times increased. For example, in July 2011, an FO’s average wait time
       was 14.4 minutes. In October 2012, the wait time increased to 17.9 minutes. In
       November 2013, the wait time increased to 30.5 minutes—more than double the wait time
       before the reduction in hours began. 21



19
     Other workloads addressed included staff training and meetings, enumeration, appeals, and income verification.
20
     At 17 FOs, we observed customers remaining in the lobby and receiving assistance after the FO closed at noon.
21
     FO manager response may not include other factors effecting public wait times, such as staff attrition.



The Social Security Administration’s Reduction in FO Operating Hours (A-01-14-14039)                                  6
      Increased customer complaints about having to wait so long for service, be it in-office or by
       telephone.
      They created customer lines out the FO door because of insufficient lobby seating to handle
       the increased visitor volume per hour. At times, visitors waited outside in the rain.
      They limited appointment availability. Before the reduced hours, the FO scheduled five or
       six appointments daily. With the reduced hours, the FO scheduled three or four
       appointments daily. Therefore, the appointment calendar was usually booked for the entire
       60-day period.
      They shifted resources away from appointments to answer telephones or assist at the front
       counter so citizens did not wait 1 hour or longer for help.

Since 2011, SSA’s staff size had decreased by nearly 11,000 employees. According to SSA,
overall service suffered. 22 As a result, in FY 2013, the public waited longer for a decision on
their disability claim, to talk to a representative on the National 800-Number, and to schedule an
appointment at the FO. 23 For example, FO wait times for individuals without appointments
increased nationwide from 18 minutes in FY 2011 to 25 minutes in FY 2013. 24

Public Satisfaction with FO Hours
Of the 79 individuals we spoke with, 48 (61 percent) rated FO hours as poor or very poor. See
Figure 1.

               Figure 1: FO Hour Rating by Individuals Who Arrived After Closure
                          35
                          30                                     29
                          25
                          20                                          19
                                                 15
                          15                             12
                          10
                           5     1       1                                    2
                           0




Several FO managers suggested that SSA modify FO hours. For example, they suggested that
the FO (a) be closed completely 1 day a week, (b) be closed completely 1 day a week and its
hours be expanded on other days; or (c) revert to original hours. Manager comments included


22
     SSA, FY 2015 Budget Overview, March 2014, p. 5.
23
     Id.
24
     SSA, MI Central, Customer Service Record Performance Reports.



The Social Security Administration’s Reduction in FO Operating Hours (A-01-14-14039)                   7
    implementing a full day closure when feasible;
    changing the early closure to a Monday or Friday (instead of Wednesday) to minimize the
     effect of creating two Mondays—as Thursdays became busier than Mondays at some FOs;
    closing FOs 1 afternoon or 1 full day a week could have less of an effect, if SSA opened FOs
     1 evening each week; and
    having FOs revert to previous hours: “While the shorter hours may be good for us, they
     certainly are not good for our customers.”

Face-to-Face and Other Service Options
Most Social Security transactions do not require a visit to an FO. 25 For example, anyone wishing
to apply for benefits, sign up for direct deposit, or replace a Medicare card may do so by calling
SSA’s National 800-Number or using the Internet.

Of the 79 individuals we spoke with, 31 (39 percent) were unaware of SSA’s other service
options. 26 Whether aware or unaware of other options, some individuals preferred face-to-face
service. For example, we spoke with

      an individual who was in a wheelchair and arrived after the FO closed. She thought the
       FO closed at 3:00 p.m., not at 12:00 p.m., on Wednesdays. Although there was an FO
       closer to her home, she depended on the bus for transportation, which did not go to the
       closer location. In addition, this individual preferred to conduct business in person.

      an Army recruiter who escorted a potential recruit to the closed FO and who commented
       that SSA’s other service options were not as good as in person.

According to OQR, in FY 2012, 85 percent of FO visitors responded that they would most likely
conduct future business with SSA locally. 27 See Table 4. Additionally, SSA conducted a survey
in FY 2013 and asked prospective customers if they would ever contact or do business with the




25
  As of April 2014, not all SSA transactions could be completed on the Internet or over the telephone. For example,
individuals must complete SSI applications at the FO. SSA plans to implement the SSI Internet application within
the next 3 to 5 years. SSA, Service Delivery Plan, February 2013, p. 13.
26
  The 31 individuals not aware of SSA’s other service options, includes 3 individuals who provided no response.
Of the 79 individuals with whom we spoke, 32 came to the FO to obtain an SSN card, which must be acquired in
person.
27
  SSA OQP, Report on the Fiscal Year 2012 Office Visitor Survey: Field and Hearing Office Analysis,
September 2013, p. 4. OQP was renamed OQR.



The Social Security Administration’s Reduction in FO Operating Hours (A-01-14-14039)                              8
Agency using one of the three main service delivery channels: telephone, office visit, or
Internet. See Table 5. 28

                          Table 4: FO Visitors – Next Social Security Contact 29
                            FO Visitors Would Most Likely…                  FY 2012
                          Visit a local FO                                   66%
                          Call a local FO                                    19%
                          Call the National 800-Number                        8%
                          Use the Internet or Email                           5%
                          Other                                               1%

        Table 5: Would You Ever Use This Method to Conduct Social Security Business?
                                        Contact Method                    Percent Yes
                          Telephone                                          88%
                          Visit                                              83%
                          Internet                                           75%

Overtime
With the struggle to meet the public’s demand for service, the Agency targeted much of its
overtime to program integrity workloads. According to SSA, FO managers directed staff to
focus efforts on workloads such as CDRs and redeterminations. From FYs 2010 to 2013, SSA
decreased the Regional Commissioner—Field (RCF) overtime costs by more than $53 million
and reduced FO staffing by over 4,000 work years. 30 See Table 6.

                                         Table 6: RCF Overtime Costs
                                                         FY 2010        FY 2011       FY 2012       FY 2013
     Total RCF Overtime Costs (millions)                  $126.0          $80.0         $80.1         $72.6
     Total RCF Workyears (staff and overtime)             38,105         37,314        35,368        33,966




28
  The survey sample included 10,000 individuals age 50 to 64 selected from a database of the general U.S.
population maintained by a private company. Of the 10,000, 3,996 individuals completed the survey questionnaire.
SSA Office of Budget, Finance, Quality, and Management, Fiscal Year 2013 Prospective Client Survey Report,
June 2014, pgs. 1 and 5.
29
     Because of rounding, Table 4 totals 99 percent.
30
  At our request, SSA provided overtime information. In general, SSA defines a work year as 2,080 straight-time
hours or their equivalent.



The Social Security Administration’s Reduction in FO Operating Hours (A-01-14-14039)                               9
SSA’s Plans for Future Service and Delivery
According to SSA, the public is becoming accustomed to self-service options, including those
offered through smartphones and the Internet. To capitalize on this trend, SSA plans to increase
the number and type of self-service choices offered. 31 SSA stated these efforts will help reduce
FO foot traffic, enabling employees to better serve those who need or want face-to-face service. 32

      National 800-Number—SSA enhanced the system so more callers can successfully complete
       business via telephone. The two major phases of this enhancement are: Phase I—live-agent
       service and Phase II—automated and enhanced services. SSA implemented Phase I in
       FY 2013 and expects to complete Phase II in FY 2014. 33
      my Social Security—SSA plans to enhance my Social Security to facilitate requests for
       replacement Social Security cards and provide optional online notice delivery. 34
      SSA Express—SSA plans to install SSA Express icons on over 6,000 public computers in
       over 170 facilities nationwide. For example, in January 2014, SSA collaborated with State
       and local organizations in the Denver Region and installed SSA Express on 14 public
       computers. 35
      Video Service Delivery—SSA plans to expand the use of Video Service Delivery to improve
       public service and reduce foot traffic in the FOs. In FY 2013, SSA maintained video units at
       423 sites and held 181,675 video interviews. 36

In addition, SSA plans to incorporate additional service options that would allow the Agency to
support multiple communication channels. For example, SSA plans to enhance systems so
customers can engage in email and live computer chat with SSA personnel. 37




31
     SSA, FY 2015 Budget Overview, March 2014, p. 17.
32
  Id. at p. 17. According to SSA, in FY 2014, it plans to replace employees who left and some—but not all—of the
losses from prior years. Id. at p. 6.
33
     Id. at p. 14.
34
  Id. at p. 17. my Social Security is a personalized online account that allows individuals to conduct business on the
Internet without having to visit an FO, make a telephone call, or use regular mail.
35
  SSA, Component Report, January 28, 2014, p. 11. According to SSA, SSA Express is a collaborative effort to
offer several self-help options to the public. One SSA Express initiative is a desktop icon installed on self-service
workstations at other government agencies and community service centers. For example, if an individual applied for
public assistance of some sort, he or she could immediately print an SSA benefit verification document using the
SSA Express icon on a self-service workstation at the facility, which could be necessary to complete the application.
36
   SSA, FY 2015 Budget Overview, March 2014, pgs. 14 and 15. Video Service Delivery is a method to serve
individuals in remote locations who might otherwise have to travel long distances to reach an SSA FO.
37
     Id. at p. 18.



The Social Security Administration’s Reduction in FO Operating Hours (A-01-14-14039)                                10
Fiscal responsibilities require that SSA determine efficient and cost-effective service delivery
approaches. Since FY 2009, SSA has reported that it reduced its real estate by 36 overall offices
and will save approximately $119 million in rent and guard support over a 10-year period. 38

According to SSA, the Agency will continue adjusting physical office structure to reflect the
Agency’s online service emphasis, while continuing to provide face-to-face service for those
customers whose business requires it. 39 In addition, SSA recognizes that not everyone is
comfortable or able to interact with the Agency in an automated fashion. 40

Other Federal Agencies
In May 2013, the Government Accountability Office (GAO) recommended that SSA develop a
long-term strategy for service delivery and explore the utility and feasibility of realigning its
Headquarters, regional, and FO structure. 41 GAO also suggested SSA contact other Federal
agencies to learn about their experiences restructuring. 42 In March 2014, SSA informed us that it
was evaluating its organizational structure and developing a long-term strategy for service
delivery.

We reviewed other Federal agencies that serve the public and found the following.

      The United States Postal Service (USPS) implemented efficiency measures and aligned
       staffing levels with projected mail volume. In the first 9 months of FY 2013, the USPS
       consolidated 104 mail-processing facilities and reduced operating hours at 7,397 post offices.
       In addition, the USPS continued taking advantage of e-commerce and increasing its shipping
       business. 43

      The Internal Revenue Service (IRS) consolidated real estate and promoted Internet
       transactions. In FY 2014, the IRS plans to close, consolidate, and reduce real estate space. 44
       In addition, the IRS Website informed taxpayers that if an issue cannot be handled online or
       by telephone to go to a Taxpayer Assistance Center.




38
     SSA, Service Delivery Plan, February 2013, p. 30.
39
     SSA, Strategic Plan 2014-2018, March 2014, p. 10.
40
     SSA, Service Delivery Plan, February 2013, p. 3.
41
  GAO, Social Security Administration, Long-Term Strategy Needed to Address Key Management Challenges
(GAO-13-459), May 2013, pgs. 34 and 35.
42
     Id. at p. 35.
43
 USPS Release No. 13-063, Postal Service Actions to Improve Efficiency Help to Lower Third Quarter Loss,
August 9, 2013.
44
     U.S. Department of the Treasury, Budget in Brief, Internal Revenue Service, FY 2014, April 2013, p. 7.



The Social Security Administration’s Reduction in FO Operating Hours (A-01-14-14039)                          11
      The Department of Veterans Affairs (VA) was maintaining its usual office hours for the
       public—as of April 2014. However, VA’s Strategic Plan included enabling a 21st Century
       benefits delivery and services model consisting of a smart paperless, self-serve system (for
       example, electronic claims submissions) with automated decision support to improve
       accuracy and consistency of claims decisions. 45

CONCLUSION
The public was sometimes unaware and personally affected by the reduced FO hours. 46
Consequently, the public’s satisfaction with FO hours decreased. In addition, some FO
managers reported that the reduced public hours generally improved workload processing as well
as staff training and morale. However, some FO managers reported drawbacks from the reduced
public hours, such as increased wait times, crowded lobbies, and limited appointment
availability. SSA should continue communicating FO hours and other service methods, such as
the National 800-Number and Website, to the public, other government agencies, and service
organizations.

AGENCY COMMENTS
SSA reviewed the draft report but did not provide any comments. See Appendix D.




45
     VA, Strategic Plan Refresh, FY 2011-2015, pgs. 40 and 41.
46
  These results do not represent all individuals who do business at the FO. These results are a snapshot of
individuals who were at the FO on a Wednesday after close and willing to talk to us.



The Social Security Administration’s Reduction in FO Operating Hours (A-01-14-14039)                          12
                                        APPENDICES




The Social Security Administration’s Reduction in FO Operating Hours (A-01-14-14039)
Appendix A – THE SOCIAL SECURITY ADMINISTRATION’S
             OTHER SERVICE DELIVERY OPTIONS
Most Social Security transactions do not require a visit to a field office (FO). 1 For example,
anyone wishing to apply for benefits, sign up for direct deposit, or replace a Medicare card may
do so by calling the Social Security Administration’s (SSA) National 800–Number at
1-800-772-1213 or logging onto its Website at www.ssa.gov.

SSA’s National 800-Number
Individuals can call the National 800–Number to get recorded information and conduct certain
actions 24 hours a day. Individuals who are unable to complete a transaction can speak to a
Social Security representative between 7:00 a.m. and 7:00 p.m., Monday through Friday. See
Table A–1 for SSA National 800-Number call data details.

        Table A–1: National 800—Number Call Data for Fiscal Years (FY) 2010 to 2013 2
                                                   FY 2010       FY 2011           FY 2012          FY 2013

    Average Daily Agency Calls Offered               225,249        216,005           239,094          255,337
    Average Daily Agency Calls Handled               167,443        165,500           162,081          145,646
    Average Staff on Duty                              4,764           4,666            4,244             3,931

Internet
Individuals can access the Internet to conduct transactions. According to SSA, Internet
(electronic) transactions accounted for 18.9 percent of the FY 2012 workload volume, see
Table A–2 for details.




1
 As of April 2014, not all SSA transactions could be completed on the Internet. For example, individuals must
complete Supplemental Security Income (SSI) applications at an FO. SSA plans to implement the SSI Internet
application within the next 3 to 5 years. SSA, Service Delivery Plan, February 2013, p. 13.
2
    Data provided by SSA’s Office of Operations.



The Social Security Administration’s Reduction in FO Operating Hours (A-01-14-14039)                            A-1
              Table A–2: eService Statistics Workload Comparison FY 2010 to 2012 3
                                           FY 2010 Electronic           FY 2011 Electronic     FY 2012 Electronic
                                            Transactions and             Transactions and       Transactions and
                                               Percent of                   Percent of             Percent of
                                            Workload Volume             Workload Volume        Workload Volume
Applications, Reports, and Post-Entitlement Events
Retirement Application                             913,473    36.8%       999,203     40.7%     1,077,589      43.1%
Spouse Application                                  64,481    15.3%        68,202     16.8%        79,174      18.6%
Medicare-Only Application 4                              -         -      289,418     44.2%       552,393      56.9%
Disability Application                             801,060    26.8%     1,000,935     32.9%     1,131,200      38.5%
Adult Disability Report                            618,430    24.4%       815,817     31.5%       905,773      36.7%
Child Disability Report                            106,927    20.6%       115,154     21.7%       127,305      30.6%
Appeal Disability Application                      661,376    29.5%       872,695     38.8%     1,037,187      49.6%
Appeal Disability Report                           556,739    37.7%       735,689     43.3%       915,759      43.8%
Medicare Drug Plan Cost                            409,189    29.0%       338,179     26.0%       310,142      26.7%
Medicare Replacement Card                          144,219    12.0%       165,184     15.6%       194,442      18.2%
Medicare Replacement Card Automated
                                                   233,678    19.4%       198,244     18.7%       197,371      18.4%
800 Number
Proof of Income Letter                             618,745     3.0%       779,342      3.7%       829,483       4.4%
Proof of Income Letter Automated
                                                   637,806     3.0%       628,075      3.0%       691,829       3.6%
800-Number
Change of Address Password                         109,801     2.3%       120,690      2.5%       144,896       3.0%
Change of Address Knowledge Based                  279,802     5.8%       307,924      6.4%       317,963       6.7%
Change of Address Automated
                                                   158,682     3.3%       151,330      3.2%       170,148      3.6%
800-Number
Direct Deposit Password                            180,423     4.1%       191,737      3.9%       235,330       4.8%
Direct Deposit Automated 800-Number                244,021     5.5%       249,228      5.1%       261,510       5.3%
Replacement 1099                                   127,783     5.7%       181,763      8.2%       178,104       7.9%
Replacement 1099 Automated
                                                    95,913     4.3%        76,876      3.5%        29,280       1.3%
800-Number
Representative Payee Accounting                    441,680     8.4%       524,423      9.6%       575,003      10.2%
                   TOTAL                         7,404,228    14.0%     8,810,105     16.2%     9,961,881      18.9%




3
    As of April 2014, FY 2013 eService statistics were available; however, workload comparison data was not.
4
 The Medicare-Only application was effective February 2010. Therefore, a full year of transactions was
unavailable.



The Social Security Administration’s Reduction in FO Operating Hours (A-01-14-14039)                             A-2
Appendix B – SCOPE AND METHODOLOGY
To accomplish our objective, we:

   Reviewed prior Office of the Inspector General (OIG) reports.

   Reviewed the Government Accountability Office (GAO) report, Social Security
    Administration, Long-Term Strategy Needed to Address Key Management Challenges
    (GAO-13-459), May 2013.

   Reviewed Social Security Administration (SSA) published reports.

   Contacted 1,172 field office (FO) managers, in December 2013, for feedback about SSA’s
    reducing FO public hours and their effect on the public, staff, and workloads. For FO
    managers who did not respond to our initial request, we followed up in January 2014. Of
    1,172 FO managers, we received responses from 1,028 (88 percent). 1

   Observed 18 FOs (see Table B–1)—from August to December 2013—located in close
    proximity to OIG Offices of Audit at closing time on a Wednesday at noon and

       documented the number of individuals who arrived after the FO closed;
       observed individuals in the FO lobby during closure;
       observed security guard activity; and
       located FO signs displaying public hours.

                                       Table B–1: FOs Observed

                        Region 2         FO Number            City               State

                                             600            Atlanta            Georgia
                        Atlanta
                                             622          Birmingham          Alabama
                                             030            Boston           Massachusetts
                        Boston
                                             075           Warwick           Rhode Island
                                             511            Chicago            Illinois
                       Chicago
                                             485            Chicago            Illinois
                                             814             Dallas             Texas
                        Dallas
                                             A76           McKinney             Texas




1
 An effective response rate for questionnaires ranges between 75 to 95 percent. GAO, Developing and Using
Questionnaires (GAO-PEMD-10.1.7), October 1, 1993, p. 203.
2
 SSA has 10 Regions. We observed FOs in all SSA Regions except Seattle, as the Office of Audit does not have an
office there.



The Social Security Administration’s Reduction in FO Operating Hours (A-01-14-14039)                        B-1
                      Region 2         FO Number           City              State

                                           882            Denver           Colorado
                       Denver
                                           093          Lakewood           Colorado
                                           098          Kansas City        Missouri
                    Kansas City
                                           772          Kansas City         Kansas
                                           144            Melville         New York
                     New York
                                           109          New York           New York
                                           195           Columbia          Maryland
                    Philadelphia
                                           283          Glen Burnie        Maryland
                                           976           Berkeley          California
                   San Francisco
                                           383           Richmond          California

   Spoke with 79 individuals who arrived after the FO closed—while observing the 18 FOs.

   Provided SSA with information obtained from FO managers and the 79 individuals we spoke
    with—after we omitted any items that would identify a specific individual or FO—so
    decisionmakers could use the information to develop a long-term, service delivery strategy.

   Requested from SSA

     analysis that the Agency conducted when deciding to reduce FO public hours,
     future plans for increasing or decreasing FO hours, and
     overtime costs for Fiscal Years 2009 to 2013.

   Reviewed other government agency public hours and service options.

We conducted our review between August 2013 and April 2014 in Boston, Massachusetts, and at
the FO locations in Table B–1. The entities audited were the Office of Public Service and
Operations Support and the FOs under the Office of the Deputy Commissioner for Operations.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.




The Social Security Administration’s Reduction in FO Operating Hours (A-01-14-14039)        B-2
Appendix C – CUSTOMER FEEDBACK
While conducting our 18 field office (FO) observations, we spoke with 79 individuals about how
often they visited the FO and the purpose of their visit that day. These results are a snapshot of
individuals who were at a FO on a Wednesday after noon and willing to talk to us.

                                        Table C–1: FO Visits Per Year

                                                             Number of           Percent of
                              FO Visits Per Year
                                                             Individuals        Individuals 1

                            First Time Visiting FO                33                41.8%
                               1-5 Visits Per Year                41                51.9%
                              6-10 Visits Per Year                2                  2.5%
                             11-15 Visits Per Year                1                  1.3%
                            Over 15 Visits Per Year               1                  1.3%
                                  No Response                     1                  1.3%
                                    TOTAL                         79                100%

                                       Table C–2: Purpose of FO Visit 2

                                                                Number of           Percent of
                             FO Service Sought
                                                                Individuals         Population

                       Social Security Card Transaction                32              40.5%
                                    Other 3                            16              20.3%
                               Earnings Report                          7               8.9%
                     Supplemental Security Income Filing                6               7.6%
                                Award Letter                            5               6.3%
                               Disability Filing                        4               5.1%
                            Medicare Transaction                        4               5.1%
                              Widow Transaction                         3               3.8%
                         Direct Deposit Transaction                     2               2.5%
                      Representative Payee Information                  2               2.5%
                                Name Change                             2               2.5%
                               Address Change                           1               1.3%
                               Retirement Filing                        1               1.3%
                                   TOTAL                               85




1
    Because of rounding, Table C–1 totals 100.1 percent.
2
  Some of the 79 visitors we spoke with sought more than one service from the FO; therefore, the number of
individuals totals 85. The percent of population is based on the 79 individuals we spoke with (not 85).
3
    Other includes conducting transactions for family members and questions about current benefit payments.



The Social Security Administration’s Reduction in FO Operating Hours (A-01-14-14039)                          C-1
           Appendix D – AGENCY COMMENTS




                                            SOCIAL SECURITY


MEMORANDUM


Date:      July 11, 2014                                                                          Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “The Social Security Administration’s Reduction
           in Field Office Operating Hours” (A-01-14-14039) - INFORMATION

           Thank you for the opportunity to review the draft report. We appreciate the effort you took in
           conducting this review and recognizing the challenges we face in balancing workloads,
           decreased staffing levels and budget, all while continuing to provide quality service to the public.
           We have no other comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to

           Gary S. Hatcher at (410) 965-0680.




           The Social Security Administration’s Reduction in FO Operating Hours (A-01-14-14039)                       D-1
Appendix E – MAJOR CONTRIBUTORS
Judith Oliveira, Director, Boston Audit Division

David Mazzola, Audit Manager

Katie Toli, Auditor

Additionally, Office of Audit staff nationwide conducted field office visits and public interviews.




The Social Security Administration’s Reduction in FO Operating Hours (A-01-14-14039)            E-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
